WAIVER
SUPREME COURT OF THE UNITED STATES
No.

Supreme Court, U.S.
FILED

JUL 2 8 2021
OFFICE OF THE CLERK

21-27
Robert Dubin
(Respondent

V.

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
0

I am filing this waiver on behalf of all respondents.

0

I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:
0

I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

0

I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. iling Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk'S.Afftce, 1 First. Strut, NE, Washington. D.C. 20543).

Signature:
Date:
(Type or print) Name David M. Almaraz
0 Mr.

0 Ms.

0 Mrs.

Firm

Alpert,-13arr & Grant, APLC

Address

15165 Ventura Blvd., Suite 200

City & State

Sherman Oaks, CA

Phone

(818) 881-5000

0

Miss

Zip 91403
Email dalmaraz@alpertbarr.com

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipients) of a copy of this form. No additional certificate of service or cover letter is required.
Paul Lindsey Hoffman
CC:

RECEIVED
AUG - 4 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

